HHS/OIG, Audit - State of TexasEfforts to Account for and Monitor SubrecipientsUse of Public Health Preparedness and Response for Bioterrorism Program Funds, (A-06-03-00057)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Texas Efforts to Account for and Monitor Subrecipients Use of Public Health Preparedness
and Response for Bioterrorism Program Funds," (A-06-03-00057)
August 6, 2003
Complete
Text of Report is available in PDF format (241 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether:  (1) the
Texas Department of Health properly recorded, summarized and reported Public Health Preparedness and Response for Bioterrorism
Program costs by specific focus area designated in cooperative agreements; (2) program funding supplanted programs previously
provided by other organizational sources; and (3) the Department of Health had established controls and procedures to
monitor subrecipients expenditures of program funds.  We noted one problem.  At the start of 2003, Department
of Health officials identified a problem with the payroll allocation that, if not corrected, could affect the accuracy
of the year 3 financial status report due November 30, 2003.  Officials at the Department of Health stated they
should have the problem corrected in the next 2 or 3 months.